                              News From
                    The Office of Inspector General
                 Corporation For National And Community Service




Ex-Director Must Repay More Than $99,000

ABERDEEN, MS. – A former AmeriCorps program director who
misused Corporation grant funds and AmeriCorps members at her
day care center was sentenced April 15, 2010, to two years’
probation and ordered to repay $99,057 in embezzled grant funds.

Florestine Gladney, of Tupelo, MS, had earlier pled guilty to theft of
Federal funds in a case investigated by OIG Special Agent William
Ruley. His investigation found that Gladney misused AmeriCorps
members, who were to have tutored children at her day care center.
They were instead illegally used as day care employees and
AmeriCorps grant funds were diverted to pay their salaries. Gladney
also filed false reports to the Corporation in an attempt to cover up
her fraud.

U.S. District Judge Sharion Aycock also sentenced Gladney to
complete 200 hours of non-compensated community service.

Based on her earlier guilty plea and information supplied by the OIG,
the Corporation in March debarred Gladney from any participation in
Federal grants and contracts for a period of three years.
